June 20, 1995

IG-1

INFORMATION: "Audit of the Department of Energy's Commercial
Laboratory Quality Assurance Evaluation Program"

The Secretary


BACKGROUND:

The audit was undertaken because of problems identified during
prior Office of Inspector General audit work. This audit work
identified problems related to quality assurance at both
subcontract commercial laboratories and M&O contractor operated
laboratories.

DISCUSSION:

The audit disclosed that contractors conducted redundant quality
assurance evaluations of commercial laboratories, did not
evaluate others, applied standards inconsistently, produced
inconsistent results, and did not communicate those results
among contractors. We found that 103 of the 206 quality
assurance evaluations covered by our review were redundant. One
laboratory was subjected to 11 redundant evaluations. Based on
a one-year evaluation cycle and contractor reported average
evaluation costs of $11,631, elimination of the 103 redundant
evaluations could have resulted in an estimated savings of about
$1.2 million per year.

We also concluded that a third-party laboratory
accreditation program, commonly used by other Federal
agencies and private sector firms, could provide overall
cost, quality and efficiency benefits to the Department.
We estimated the Department could have avoided about
$2.4 million per year by adopting such a third-party
accreditation program. Overall, we estimated that
implementation of this recommendation would result in savings to
the Department of about $12 million over a five-year period.

We recommended that the Assistant Secretary for Environment,
Safety and Health develop and implement a coordinated
third-party commercial laboratory quality assurance program by:
(1) requiring that commercial laboratories participate in a
third-party accreditation program as a condition for award of
laboratory analytical services contracts; (2) phasing-in to
existing laboratory contracts, as allowed, the third-party
accreditation program; (3) developing and
                               -2-


implementing Department specific evaluation standards and
methods of application with the selected third-party accreditor;
and (4) providing for ongoing monitoring, coordinating and
oversight of laboratory accreditation issues to ensure that all
Departmental concerns are addressed in a uniform and timely
manner. The Office of Environment, Safety and Health concurred
with the recommendation and is planning actions to correct the
problems noted in the report.



                                    (Signed)

                                  John C. Layton
                                  Inspector General

Attachment

cc:   Deputy Secretary
      Under Secretary
      Assistant Secretary
        for Environmental Management
      Assistant Secretary for Human Resources
        and Administration


                     U.S. DEPARTMENT OF ENERGY
                    OFFICE OF INSPECTOR GENERAL




                 AUDIT OF THE DEPARTMENT OF ENERGY'S

                       COMMERCIAL LABORATORY

                 QUALITY ASSURANCE EVALUATION PROGRAM


The Office of Inspector General wants to make the distribution
of its reports as customer friendly and cost effective as
possible. Therefore, we are making this report available
electronically through the Internet at the following alternative
addresses:


             Department of Energy Headquarters Gopher
                         gopher.hr.doe.gov

          Department of Energy Headquarters Anonymous FTP
                        vm1.hqadmin.doe.gov

  U.S. Department of Energy Human Resources and Administration
                           Home Page
               http://www.hr.doe.gov/refshelf.html

Your comments would be appreciated and can be provided on the
Customer Response Form attached to the report.




Report Number: DOE/IG-0374               Capital Regional Audit Office
Date of Issue: June 21, 1995             Germantown, Maryland 20874




                AUDIT OF THE DEPARTMENT OF ENERGY'S
                       COMMERCIAL LABORATORY
               QUALITY ASSURANCE EVALUATION PROGRAM



                         TABLE OF CONTENTS




                                                          Page

            SUMMARY ...................................     1

PART I    - APPROACH AND OVERVIEW .....................     3

            Introduction ..............................     3

            Scope and Methodology .....................     3

            Background ................................     5

            Observations and Conclusions ..............     5

PART II   - FINDING AND RECOMMENDATION ................     7

            Evaluation of Commercial Analytical
            Laboratories ..............................     7
PART III - MANAGEMENT AND AUDITOR COMMENTS ........... 15


                    U.S. DEPARTMENT OF ENERGY
                   OFFICE OF INSPECTOR GENERAL
                             #=1
                    OFFICE OF AUDIT SERVICES
               AUDIT OF THE DEPARTMENT OF ENERGY'S
                      COMMERCIAL LABORATORY
              QUALITY ASSURANCE EVALUATION PROGRAM


Audit Report Number:   DOE/IG-0374

                              SUMMARY


     The Department of Energy (Department), through its
contractors, contracts with commercial analytical laboratories
for the analysis of samples related to environmental management
activities and worker health and safety programs. Over 100
commercial laboratories located throughout the United States
perform sample analyses for the Department. Because of problems
identified during previous audit work, we initiated our audit to
determine whether the Department's commercial laboratory quality
assurance evaluation program was effective and efficient.

     The Department's method of performing quality assurance
evaluations of commercial analytical laboratories was not cost
effective or efficient. Contractors at many of the Department's
sites conducted multiple evaluations of the same commercial
laboratory. In contrast, some laboratories were not evaluated
to determine their ability to provide analytical services. In
addition, methods used to perform evaluations and report results
varied among contractors. Finally, quality assurance evaluation
results were not communicated to other contractors.

     These problems occurred because the Department's quality
assurance policy guidance did not require development and
implementation of a coordinated commercial laboratory quality
assurance program. The Department did not require contractors
to coordinate efforts, develop uniform standards and methods, or
to communicate the results of their evaluations to other
contractors. Contractors were only required to initially
evaluate and periodically confirm that laboratories were capable
of providing quality analytical data.

     The lack of a coordinated commercial laboratory quality
assurance evaluation program resulted in excessive cost,
duplication of effort, and potentially placed the Department at
risk that its decisions on worker health and safety issues and
environmental matters may be based on unreliable data.
Contractor provided cost estimates indicated that the Department
spent about $2.4 million for commercial laboratory evaluations
conducted for Fiscal Year 1993, and that approximately $1.2
million of that amount was attributable to duplicative
evaluations. The failure to evaluate some laboratories,
inconsistent evaluation and reporting methods, and failure to
communicate results of evaluations to other contractors
increased the risk that the Department may rely on analyses from
laboratories with quality assurance problems.
     Adoption of our recommendation to implement a third-party
laboratory accreditation program, would eliminate the need to
spend the $2.4 million annually for quality assurance
evaluations of commercial laboratories. Under this approach,
subcontract laboratories bear all costs of accreditation and are
required to participate as a condition to bid on analytical
service contracts. Third-party accreditation would provide
assurance that laboratories are evaluated to clear and
consistent common standards and that reporting and communication
of evaluation results is uniform within the Department.

     The Assistant Secretary for Environment, Safety and Health
agreed with the problems addressed in the report and agreed to
take action with respect to our recommendations. Management
agreed to adopt either the recommended third-party accreditation
approach or an alternative approach that would eliminate
redundancies and correct the conditions cited in our report. In
addition to interim measures to facilitate the sharing of
evaluation results, management stated that it would establish a
Process Improvement Team to consider alternatives for
implementing our recommendations and would provide its
recommendations within 180 days of the final audit report.
Management also stated that the team would be a cooperative
effort to include representatives from the Offices of the
Assistant Secretary for Environmental Management and the Deputy
Assistant Secretary for Procurement and Assistance Management.


                                 (Signed)
                               ______________________________
                               Office of Inspector General



                             PART I

                      APPROACH AND OVERVIEW


INTRODUCTION

     The Department of Energy (Department), through its
contractors, contracts with commercial analytical laboratories
for the analysis of samples related to environmental management
activities and worker health and safety programs. These
contractors consist of management and operating contractors,
environmental restoration management contractors, and lower tier
subcontractors (contractors). Over 100 commercial laboratories
located throughout the United States perform sample analyses for
the Department.

     The purpose of our audit was to determine whether the
Department's commercial laboratory quality assurance evaluation
program was effective and efficient. Specifically, our audit
objective was to determine whether the Department's method of
qualifying commercial laboratories resulted in redundant quality
assurance evaluations.
SCOPE AND METHODOLOGY

     The audit was performed from May through October 1994.
Field work was performed at the Department's Oakland, Idaho, and
Albuquerque Operations Offices during that period. We also
collected information through survey techniques from the
Chicago, Nevada, and Richland Operations Offices. In addition,
we used information gathered during a previous audit from the
Department's Oak Ridge and Savannah River Operations Offices and
the Rocky Flats Field Office.

     Our review focused primarily on quality assurance
evaluations of commercial laboratories conducted by contractors
during Fiscal Year 1993. We also included evaluations that were
scheduled in Fiscal Year 1993 but not completed until Fiscal
Year 1994. We collected and reviewed contractor quality
assurance evaluation programs, protocols and reports covering
206 separate evaluations. Contractor prepared evaluation cost
estimates were also used for determining the overall cost of
evaluations.

     We based the estimate of cost savings on a one-year
evaluation cycle and an average evaluation cost based on
contractor prepared estimates. That cycle was chosen because
the majority of the contractors covered by our review used a
one-year or shorter evaluation cycle. Contractor provided
estimates for a typical evaluation were used because contractors
did not separately track evaluation costs. To normalize
contractor provided estimates that ranged from under $1,000 to
over $53,000 per evaluation, we totaled the estimates and
divided that total by the 30 contractors covered by our review.
This method produced an average evaluation cost of $11,631.

     We considered all quality assurance evaluations in excess
of one per commercial laboratory per fiscal year to be
redundant. We used this approach because most contractors
believed that one evaluation per year was adequate and because
many commercial laboratories stated that evaluations were
virtually identical.

     We also collected and evaluated information from
subcontract commercial laboratories and other external sources.
We reviewed and considered the results of a survey conducted by
the International Association of Environmental Testing
Laboratories. Information on alternative methods of evaluating
laboratories was gathered from a Federal agency and a non-profit
third-party laboratory accreditation association.

     The audit was made in accordance with generally accepted
Government auditing standards for performance audits and
included tests of internal controls and compliance with laws and
regulations to the extent necessary to satisfy the audit
objective. Accordingly, we assessed the internal controls with
respect to the requirement that subcontract commercial
analytical laboratories be initially qualified and periodically
evaluated to ensure they can provide acceptable results of
analyses. Because our review was limited, it would not
necessarily have disclosed all internal control weaknesses that
may have existed at the time of our audit.

     We did not rely on computer-processed data to accomplish
our audit objective. Our estimate of available savings was not
based on the results of statistical sampling.

     An exit conference was held with representatives of the
Office of Environmental Management and the Office of
Environment, Safety and Health on December 14 and 16, 1994,
respectively. The Deputy Assistant Secretary for Procurement
and Assistance Management waived the exit conference.
Coordination of Management's final response to our report
occurred on June 5, 1995.

BACKGROUND

     In 1991, the Department established a comprehensive quality
assurance program to provide confidence that quality was
achieved throughout the broad spectrum of work performed by the
Department and its contractors. The Department established
quality assurance requirements to ensure that risks and
environmental impacts were minimized and that safety,
reliability, and performance were maximized through the
effective management systems commensurate with the risks posed
by the facility and its work.

     To achieve these goals as they relate to procurement of
laboratory analytical services, the Department's Quality
Assurance Program requires all laboratories that provide
analytical services be evaluated to ensure they are qualified to
perform the required work. Contractors meet these goals by
performing quality assurance evaluations of commercial
analytical laboratories that analyze samples for the Department.
These evaluations are required to ensure that the results of
subcontractor sample analyses, critical to decisions regarding
environmental and worker health and safety matters, are
reliable.

     We initiated this audit because of problems identified
during prior Office of Inspector General audit work. We
reported that the results of quality assurance evaluations were
not communicated among contractors during our Audit of the
Effectiveness and Efficiency of the Rocky Flats Analytical
Services Program, (Report Number CR-B-95-01, dated November 3,
1994). Also, problems related to multiple quality assurance
evaluations of subcontract commercial laboratories were
identified during a review of subcontract administration.

OBSERVATIONS AND CONCLUSIONS

     The Department's method of performing quality assurance
evaluations of commercial analytical laboratories was not cost
effective or efficient. Contractors at many of the Department's
sites conducted multiple evaluations of the same commercial
laboratory. In contrast, some laboratories were not evaluated
to determine their ability to provide analytical services. In
addition, methods used to perform evaluations and report results
varied among contractors. Finally, quality assurance evaluation
results were not communicated to other contractors.

     These problems occurred because the Department's quality
assurance policy guidance did not require development and
implementation of a coordinated commercial laboratory quality
assurance program. The Department did not require contractors
to coordinate efforts, develop uniform standards and methods, or
to communicate the results of their evaluations to other
contractors. Contractors were only required to initially
evaluate and periodically confirm that laboratories were capable
of providing quality analytical data.

     The lack of a coordinated commercial laboratory quality
assurance evaluation program resulted in excessive cost,
duplication of effort, and potentially placed the Department at
risk that its decisions on worker health and safety issues and
environmental matters may be based on unreliable data.
Contractor provided cost estimates indicated that the Department
spent about $2.4 million for commercial laboratory evaluations
for Fiscal Year 1993, and that approximately $1.2 million of
that amount was attributable to duplicative and unnecessary
evaluations. The failure to evaluate some laboratories,
inconsistent evaluation and reporting methods, and failure to
communicate results of evaluations to other contractors
increased the risk that the Department may rely on analyses from
laboratories that suffer from quality or other problems.

     The adoption of our recommendation to implement a
third-party laboratory accreditation program would eliminate the
need to spend $2.4 million per year for commercial laboratory
quality assurance evaluations. Portions of the Environmental
Protection Agency, the Department of Housing and Urban
Development, a U.S. Navy activity, and some major corporations
have successfully adopted this approach to laboratory
accreditation. Under this approach, subcontract laboratories
bear all costs of accreditation and are required to participate
as a condition to bid on analytical service contracts. In
addition, third-party accreditation would provide assurance that
laboratories are evaluated to clear and consistent common
standards, and that reporting and communication of evaluation
results is uniform within the Department.

     The lack of a cost-effective and efficient commercial
laboratory quality assurance evaluation program constitutes a
management control weakness that should be considered when
preparing the yearend assurance memorandum on management
controls.

                             PART II

                   FINDING AND RECOMMENDATION


        Evaluation of Commercial Analytical Laboratories
FINDING

     Sound management practices dictate that the Department
should strive to streamline its programs to ensure they operate
effectively and efficiently. The Department's program for
performing quality assurance evaluations of commercial
analytical laboratories was neither cost effective nor
efficient. Specifically, contractors conducted redundant
quality assurance evaluations of commercial laboratories, did
not evaluate others, applied standards inconsistently, produced
inconsistent results, and did not communicate those results
among contractors. These problems occurred because the
Department's quality assurance policy guidance did not require
the development and implementation of a coordinated commercial
laboratory quality assurance program. As a result, about $1.2
million was for duplicative evaluations and the estimated $2.4
million the Department expended for Fiscal Year 1993 commercial
laboratory quality assurance evaluations could be saved by
adopting a third-party laboratory accreditation program. In
addition, the Department is potentially at risk that its
decisions on worker health and safety issues and environmental
matters may be based on unreliable data.

RECOMMENDATIONS

     We recommend that the Assistant Secretary for Environment,
Safety and Health, in coordination with the Assistant Secretary
for Environmental Management and the Deputy Assistant Secretary
for Procurement and Assistance Management:

     Develop and implement a coordinated third-party
commercial laboratory quality assurance program. At a
minimum, the program should:

          1.   Require that commercial laboratories participate
               in a third party accreditation program as a
               condition for award of laboratory analytical
               services contracts;

          2.   Phase-in to existing laboratory contracts, as
               allowed, the third-party accreditation program;

          3.  Develop and implement Department specific
              evaluation standards and methods of application
with the selected third-party accreditor; and

          4. Provide for ongoing monitoring, coordination and
oversight of laboratory accreditation issues to
ensure that all Departmental concerns are
addressed in a uniform and timely manner.

MANAGEMENT REACTION

     The Assistant Secretary for Environment, Safety and Health
agreed with the problems addressed in the report and agreed to
take action with respect to our recommendations. Management
agreed to adopt either the recommended third-party
accreditation approach or an alternative approach that would
eliminate redundancies and correct the conditions cited in our
report. In addition to interim measures to facilitate the
sharing of evaluation results, management stated that it would
establish a Process Improvement Team to consider alternatives
for implementing our recommendations and would provide its
recommendations within 180 days of the final audit report.
Management also stated that the team would be a cooperative
effort to include representatives from the Offices of the
Assistant Secretary for Environmental Management and the Deputy
Assistant Secretary for Procurement and Assistance Management.

                       DETAILS OF FINDING


IMPROVING THE EFFICIENCY OF GOVERNMENT

     The Vice President's National Performance Review (NPR)
emphasized that Government agencies should strive to be more
efficient by eliminating program redundancies. The objective
of this and other NPR initiatives is to make Governmental
programs work better and cost less. In addition, sound
management practices dictate that, where practical, the
Department should streamline its programs to eliminate
duplication and to ensure equitable and consistent treatment of
commercial laboratories. In this respect, Departmental
resources should not be expended for and commercial
laboratories should not be subjected to redundant evaluations.

Quality Assurance Evaluation Requirement

     The Department's Quality Assurance Order, 5700.6C dated
August 21, 1991, requires that contractors confirm that
subcontract commercial analytical laboratories that perform
analyses for the Department are capable of providing acceptable
levels of service. Contractors are required to conduct both
initial and periodic quality assurance evaluations of those
laboratories. Contractors are responsible for conducting such
evaluations as part of their overall quality assurance program.
Even though the Department did not specify a required frequency
of evaluation, most contractors included in our review had
adopted a one-year cycle.

COMMERCIAL LABORATORY QUALITY ASSURANCE PROGRAM

     The Department's program for performing quality assurance
evaluations of commercial analytical laboratories was neither
cost effective nor efficient. Specifically, we found that:

     \ Departmental contractors performed redundant initial
and periodic quality assurance evaluations of
commercial analytical laboratories, while others
received no evaluations;

     \ Quality assurance evaluation methods varied from one
contractor to another; and
     \ Results of laboratory quality assurance evaluations
were not shared between contractors.

Quality Assurance Evaluations

     The Department's contractors conducted redundant initial
and periodic quality assurance evaluations of commercial
analytical laboratories. We found that 103 of the 206 quality
         assurance evaluations covered by our review were redundant.   The
following table illustrates laboratories subjected to redundant
evaluations and the total number of redundant evaluations.

   IMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMM;
   :                                          TOTAL      :
   :    NUMBER OF           REDUNDANT       REDUNDANT    :
   :   LABORATORIES   X    EVALUATIONS = EVALUATIONS     :
   LMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMM9
   :        1                  11              11        :
   :        1                   7               7        :
   :        3                   6              18        :
   :        1                   5               5        :
   :        4                   4              16        :
   :        4                   3              12        :
   :       10                   2              20        :
   :       14                   1              14        :
   :       38                                 103        :
   :      MMMM                                MMMM       :
   HMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMM<


As shown in the table, one laboratory was subjected to 11
redundant evaluations. These 11 evaluations were conducted by
9 separate contractors. Of the commercial laboratories
performing analyses for the Department, 38 of 103 (about 37
percent) were subjected to redundant evaluations. Moreover, 23
of the 30 contractors covered by our review conducted at least
one evaluation of a commercial laboratory that had been
previously evaluated by another contractor.

     Quality assurance evaluations were also duplicated within
operations offices. For example, at three operations offices
more than one of the contractors under the control of those
offices conducted separate evaluations of the same laboratory.
At two other sites, separate evaluations of the same commercial
laboratory were conducted by two different program elements
within the same contractor.

     Subcontract commercial laboratories reviewed believed that
duplicative evaluations conducted by contractors resulted in an
unfair burden on them. Most laboratories stated that the
evaluations were overly redundant and most covered virtually
identical subject matter. Evaluations frequently required
substantial investments of staff resources and caused
laboratory throughput to suffer. At some laboratories,
production virtually ceased for periods of up to 4 days.
     In contrast to these redundant evaluations, several
contractors did not conduct evaluations of small dollar value
awards and lower tier subcontract laboratories. These
laboratories were allowed to analyze samples even though their
ability to provide quality analytical data had not been
assessed. Officials for a contractor told us that they did not
evaluate laboratories with small dollar value awards because
they believed that the cost of the evaluation would exceed the
total value of the contract. Another contractor stated that it
allowed commercial laboratories to subcontract some or all
analytical work to others without evaluating the lower tier
subcontractor's ability to perform.

Variations in Evaluation Methods

     Quality assurance evaluation methods varied from one
contractor to another. While most evaluations covered the same
general subject area, the depth and specificity of coverage
varied significantly. For example, several evaluation programs
required only that the evaluator complete a yes/no type
checklist. In contrast, one evaluation program consisted of
over 142 pages of detailed technical questions. That checklist
required the evaluator to provide detailed support for each
exception found. Many variations between these two extremes
were observed.

     Commercial laboratories also reported that variations in
evaluation methods and evaluator qualifications made it
difficult to adequately prepare for evaluations. Respondents
to a survey conducted by the International Association of
Environmental Testing Laboratories stated that some evaluators
did not have sufficient training and experience to enable them
to understand the area of chemistry they sought to evaluate.
These laboratories stated that reviewers concentrated mainly on
the area of chemistry with which they were most familiar,
overemphasized some areas, and virtually ignored others.
Laboratories also cited differences in interpretations of
standards that required them to make frequent and unnecessary
changes to their methods of operation.

     We also noted a number of inconsistencies in the amount of
contractor resources dedicated to performing quality assurance
evaluations. Preparation time, length of site visit, number of
personnel assigned, and average evaluation costs varied
significantly from one contractor to another. Evaluation
preparation time usually involved preliminary reviews of
laboratory quality assurance documents and required from 2 to
112 hours. Site visits were conducted by from 2 to 10 persons
and required from 1 to 5 days to complete. Contractors
reported that typical costs ranged from just under $1,000 to
over $53,000 per evaluation.

Results of Laboratory Evaluations

     Contractors did not share the results of quality assurance
evaluations with one another. Contractor officials stated that
even though they recognized that duplicative evaluations were
occurring, they did not consult with one another regarding
scheduling and did not share the results of evaluations with
other contractors. Both Department and contractor officials
stated that some laboratories failed to qualify or were
suspended from work for one site but continued to test samples
for other sites. These officials told us that even when they
learned of these failures or suspensions, they did not notify
other known laboratory customers.

     The quality of reporting results of evaluations also
varied significantly among contractors. A number of the
contractors covered in our review prepared well documented
reports that identified findings, cited supporting
requirements, and specified required corrective actions. Some,
however, produced poor quality reports of evaluation in which
findings could not be readily identified. One contractor did
not prepare a report at all and retained only the completed
checklists as proof of its evaluation. Another contractor
prepared only a bid review sheet for preaward evaluations and
did not detail evaluation results.

     Both Departmental and contractor officials at Headquarters
and in the field acknowledged that because evaluation results
were not shared, some sites used laboratories that had failed
to qualify for work at other sites. While most of the
officials indicated they would be interested in knowing what
laboratories had failed evaluations and the basis for the
failures, they stated that current contracting methods did not
permit the exchange of such information.

QUALITY ASSURANCE REVIEW APPROACH

     These problems occurred because the Department's quality
assurance policy guidance did not require development and
implementation of a coordinated commercial laboratory quality
assurance program. The Department did not require contractors
to coordinate efforts, develop uniform evaluation and reporting
methods, or to communicate the results of their evaluations to
other contractors. The Department's Quality Assurance Program
required only that contractors initially evaluate and
periodically confirm that laboratories were capable of
providing quality analytical data.

EFFECT OF CONTINUING CURRENT METHOD

     The lack of a coordinated commercial laboratory quality
assurance evaluation program resulted in excessive cost,
duplication of effort, and potentially placed the Department at
risk that its decisions on worker health and safety issues and
environmental matters could be based on unreliable data.
Redundant evaluations conducted by contractors resulted in
significant unnecessary expenditures. The failure to evaluate
some laboratories, inconsistent evaluation and reporting
methods, and the failure to communicate results of evaluations
to other contractors increased the risk that the Department may
rely on analyses from laboratories that suffer from quality or
other problems.
     The Department's method of evaluating commercial
laboratories resulted in unnecessary expenditures. Based on a
one-year evaluation cycle and contractor reported average
evaluation costs of $11,631, elimination of the 103 redundant
evaluations would result in estimated savings of about $1.2
million per year. Savings of about $2.4 million for the 206
evaluations covered by our review could be avoided by adopting
the recommended third-party accreditation program. Over a
5-year period, our recommended approach would result in an
estimated savings, without adjustment for inflation, of about
$12 million. These estimates do not consider indirect charges
for items such as the development and maintenance of evaluation
programs and checklists.

      The lack of sharing laboratory evaluation results
potentially puts the Department at risk that its decisions on
worker health and safety issues and environmental matters may
be based on unreliable data. While this risk is not directly
quantifiable, we believe that it is significant. The fact that
a laboratory may continue to provide analytical services that
directly impact worker health and safety issues or
environmental decisions, when it fails to qualify or is
suspended for cause, demonstrates the significance of such
risk.

     The inconsistent application of evaluation and reporting
methods also increases the risk that the Department's decisions
regarding subcontractor qualifications are inappropriate.
Inconsistencies in evaluation and reporting methods and the
failure to evaluate small dollar value and lower tier
subcontractors increases the risk that unqualified laboratories
may be permitted to analyze samples. The Department may also
not be able to successfully defend decisions to exclude a
laboratory from work for one site while allowing it to analyze
samples for another.

Third-Party Laboratory Accreditation

     The adoption of our recommendation, to implement a
third-party laboratory accreditation program, should solve the
problems observed during our audit. Portions of the
Environmental Protection Agency, the Department of Housing and
Urban Development, a U.S. Navy activity, and some major
corporations have successfully adopted this approach to
laboratory accreditation. Under this program, subcontract
laboratories bear all costs of evaluations. Requiring
accreditation as a condition to bid on analytical service
contracts would reduce expenditures for the administration and
conduct of these evaluations. Third-party accreditation would
also provide assurance that each laboratory is evaluated to a
common standard, that such standards are consistently
interpreted and applied, and that reporting and communication
of results is uniform across the Department.

     Also, adoption of a third-party laboratory accreditation
program would not weaken the Department's quality assurance
program. A third-party accreditation program would provide
assurance that laboratories are initially qualified to perform
analyses. These evaluations, however, as important as they
are, speak only to the ability of a laboratory to perform on a
given date. Once analysis begins, other additional controls
such as monitoring a laboratory's ability to properly analyze
quality control and performance samples becomes important.

                            PART III

                 MANAGEMENT AND AUDITOR COMMENTS

     The Assistant Secretary for Environment, Safety and Health
agreed with the problems addressed in the report and agreed to
take action with respect to our recommendations. Management
agreed to adopt either the recommended third-party
accreditation approach or an alternative approach that would
eliminate redundancies and correct the conditions cited in our
report. In addition to taking interim measures to facilitate
the sharing of evaluation results, management stated that it
intended to form a Process Improvement Team, to consider
quality assurance evaluations and methods as they relate to
contractor operated laboratories and will provide its
recommendations within 180 days of the final audit report
issuance date. Management also stated the team would be a
cooperative effort to include representatives from the Offices
of the Assistant Secretary for Environmental Management and the
Deputy Assistant Secretary for Procurement and Assistance
Management. Detailed management and auditor comments follow.

     Management Comments: Management agreed that based on its
experience with the Department's Laboratory Accreditation
Program for External Dosimetry and that of other Federal
Agencies cited in our report, the third-party approach to
supplier qualification and accreditation is practicable in
certain instances.

     Management stated that it would establish a Process
Improvement Team, in coordination with the Assistant Secretary
for Environmental Management and the Deputy Assistant Secretary
for Procurement and Assistance Management, to consider
alternatives for implementing the recommendations and for
correcting the conditions cited in our report. Management
pledged to either adopt the recommended approach or an
alternative approach that will eliminate redundancies and other
reported problems. As an interim measure, Management stated
that it was in the process of implementing procedures that will
facilitate the sharing of evaluations results between
contractors and programs. Management also stated that its
Process Improvement Team would consider quality assurance
evaluations and methods as they relate to contractor operated
laboratories.

     Management also recognized that while action was required
to correct the reported conditions, it sought to develop and
implement the least prescriptive requirements to accomplish
that goal. It believed that such requirements, supported by
innovative guidance, would allow managers to create the most
efficient processes, using appropriate standards, to accomplish
their mission. Management stated that it desires a coordinated
approach between suppliers and laboratory contractors to ensure
high quality services and products. Based on that philosophy,
the Process Improvement Team will be chartered to determine an
approach that will eliminate redundancies, and have reasonable
and cost-effective application to the Department, its
contractors, and commercial contract laboratories. For
programs or areas for which the third-party accreditation is
adopted, either in whole or in part, management agreed to
establish protocols and standards for that option.

     Auditor Comments:   Management's comments are responsive to
our recommendations.

                                       IG Report No. DOE/IG-0374

                     CUSTOMER RESPONSE FORM

     The Office of Inspector General has a continuing interest
in improving the usefulness of its products. We wish to
make our reports as responsive as possible to our customers'
requirements, and therefore ask that you consider sharing
your thoughts with us. On the back of this form, you may
suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions
if they are applicable to you:

     1.   What additional background information about the se-
lection, scheduling, scope, or procedures of the audit
or inspection would have been helpful to the reader in
understanding this report?

     2.   What additional information related to findings and
recommendations could have been included in this report
to assist management in implementing corrective ac-
tions?

     3.   What format, stylistic, or organizational changes might
have made this report's overall message more clear to
the reader?

     4.   What additional actions could the Office of Inspector
General have taken on the issues discussed in this
report which would have been helpful?

     Please include your name and telephone number so that we may
contact you should we have any questions about your com-
ments.

     Name                                     Date

     Telephone                                Organization

     When you have completed this form, you may telefax it to the
Office of Inspector General at (202) 586D0948, or you may
mail it to:

          Office of Inspector General (IG-1)
          Department of Energy
          Washington, D.C. 20585
          ATTN: Customer Relations

     If you wish to discuss this report or your comments with a
staff member of the Office of Inspector General, please
contact Wilma Slaughter at (202) 586D1924.
